              Office of
              INSPECTOR GENERAL
              U.S. Department of the Interior

      INSPECTION REPORT




          Museum Collections:
   Preservation and Protection Issues
   with Collections Maintained by the
         Bureau of Reclamation

Report No. C-IS-BOR-0006-2010                   January 2010
                           United States Department of the Interior
                                          OFFICE OF INSPECTOR GENERAL
                                         CENTRAL REGION - DENVER FIELD OFFICE
                                                     134 Union Blvd., Suite 510
                                                           Denver CO 80228



                                                                                  January 29,2010

To:        Michael 1. Connor
           Commissioner, Bureau of Reclamation

From:      LoraleeBennett~~ ~
           Deputy Regional Audit Manager

Subject:   Inspection Report - Museum Collections: Preservation and Protection Issues with
           Collections Maintained by the Bureau of Reclamation (C-IS-BOR-0006-201O)

       The long-tenn preservation and future availability of artwork, artifacts, and other items
maintained in museum collections operated by the Bureau of Reclamation (BOR) requires BOR
to minimize those factors that tend to shorten an object's life. As a result, we evaluated BOR
museum collections to determine whether BOR was adequately preserving and protecting its
artwork, artifacts, and other museum objects.


             Background
                                             II
       Bureaus within the Department of the Interior manage museum collections that are
estimated to include over 146 million pieces of artwork, artifacts, and other museum objects.
Museum property is acquired to be preserved, studied, or interpreted for public benefit and can
include objects representing archeology, art, history, botany, zoology, paleontology, or geology.

       Because museum property is intended for long-term preservation, its management
requirements are necessarily different from the requirements of property that can be easily
replaced. Therefore, the Department's Museum Property Handbook defines seven preservation
categories for use in protecting museum property: storage, environment, security, fire protection,
housekeeping, planning, and staffing.

        On December 16,2009 we issued a report titled "Department of the Interior Museum
Collections" (Report No. C-IN-MOA-00IO-2008). The review found that the Department was a
poor steward of these museum collections and could take additional steps to improve
preservation and protection of museum collections. To assess the adequacy of the Department's
preservation practices, we developed a 44 question checklist assessing the seven preservation
areas identified in the Department's guidance. Using this checklist, we visited two BOR sites and
                                                  • 1• •
completed the checklist based on both our observations and interviews with museum personnel.
We also received self-reported checklists from an additional three BOR sites. This report
provides you with specific results for the BOR sites.


       Results of Inspection

        Overall, we found BOR could take steps to improve the preservation practices at BOR
sites included in this review. See Appendix. While some sites had only a small number of
deficiencies, others had numerous
                                                                                Percentage of Checklist
deficiencies in multiple categories. Even one Site                              Items with Deficiencies
deficiency could jeopardize museum objects Middle Snake River                            25%
and result in irreparable harm, irreversible
                                                 New Melones                             32%
damage, or loss of the item. For example, at
the New Melones Artifact Storage Facility        Hover Dam Repository                     2%
in Jamestown, CA we were informed that,          Huhugam Heritage Center                  5%
while the site had a security alarm system,      Lower Colorado Office                    0%
the museum specialist did not arm the
system. The specialist stated he did not arm the system because there was no one for the alarm
company to notify if the alarm was triggered. As a result, artifacts at this location were placed at
increased risk of being stolen or tampered with.


         Recommendations

       We recommend that the Commissioner, Bureau of Reclamation, ensure that a plan is
developed and implemented to:

        Recommendation 1. Correct and/or mitigate, to the greatest extent possible, all
        identified deficiencies at the five sites identified in this report.

        Recommendation 2. Inspect all remaining BOR sites that house museum collections
        and correct and/or mitigate, to the greatest extent possible, all identified deficiencies.

        We would appreciate being kept apprised of the actions planned, or taken, on our
recommendations as we will track the status of their implementation. We ask that you inform us
of the planned course of action of the recommendations within 30 days.

       If you have any comments or questions regarding this advisory, please call me at
(303) 236-9243.




                                                   2
                                                                                                                           Appendix

                                                             Observed                               Self-Reported




                                               Middle Snake River




                                                                                                        Huhugam Heritage




                                                                                                                              Lower Colorado
                                                                                                                              Regional Office
                                                                        New Melones




                                                                                      Hoover Dam
                                                  Field Office




                                                                                       Repository
       No Deficiencies Noted




                                                                                                            Center
   X   Deficiencies Noted

   % Percentage of Deficiencies Noted


STORAGE                                         8%                      15%           0%                 8%                    0%
1. Safe from flooding.                                                  X                                   X
2. Appropriately insulated.                                             X
3. Appropriate space.
4. Sufficient space.                                X
5. Adequate storage cabinets.
6. Cabinets not over-stacked.
7. Open shelving safe.
8. Stacked items protected.
9. Earthquake safe.
10. No overcrowding.
11. Secure exhibit cases.
12. Appropriate exhibit cases.
13. Properly framed artwork.
ENVIRONMENT                                    78%                      22%           0%                 0%                    0%
14. Temperature & humidity monitored.               X
15. Observations recorded.                          X                   X
16. Observations permanently saved.                 X
17. Observations analyzed.                          X                   X
18. Hygrothermographs maintained.
19. Outside lights appropriately controlled.        X
20. Artwork away from vents.
21. Pest control devices used.                      X
22. Type of pests analyzed.                         X
SECURITY                                        0%                      50%           13%                0%                    0%
23. Appropriate staff have keys.                                        X
24. Keys are controlled.                                                X                X
25. Visitors escorted.                                                  X
26. Visitors sign in.
27. Closing procedures documented.
28. Alarm systems maintained.                                           X
29. Sensitive items stored separately.
30. Irreplaceable items guarded.




                                                               3
                                                                                                                       Appendix

                                                         Observed                               Self-Reported




                                           Middle Snake River




                                                                                                    Huhugam Heritage




                                                                                                                          Lower Colorado
                                                                                                                          Regional Office
                                                                    New Melones




                                                                                  Hoover Dam
                                              Field Office




                                                                                   Repository
       No Deficiencies Noted




                                                                                                        Center
   X   Deficiencies Noted

   % Percentage of Deficiencies Noted


FIRE PROTECTION                             0%                      40%           0%                 0%                    0%
31. Fire detection and suppression.                                 X
32. Fire extinguishers.                                             X
33. Staff trained on fire extinguishers.
34. Fire suppression systems clear.
35. No flammable liquids.
HOUSEKEEPING                               50%                      50%           0%                 0%                    0%
36. Housekeeping performed.                     X                   X
37. Written rules on housekeeping.              X                   X
38. Housekeepers trained.
39. Smoking & eating prohibited.
PLANNING                                   33%                      67%           0%                33%                    0%
40. Written plan.                               X                   X
41. Assessment of property.                                         X
42. Plan to evacuate property.                                                                          X
STAFFING                                    0%                      0%            0%                 0%                    0%
43. Staff assigned responsibilities.
44. Staff have been trained.
ADDITIONAL DOCUMENTS
1. Checklist Report                                                 X                                   X
2. Basic Security Protection Report             X                   X                X
3. Fire Protection Plan                                             X
4. Integrated Pest Management Plan                                  X
5. Environmental Control Plan                   X                   X
6. Annual Emergency Management Plan
7. Current Collection Storage Plan              X                                                                             X
8. Written Handling Procedures                  X                                                                             X




                                                           4
Report Fraud, Waste, Abuse
   And Mismanagement
           Fraud, waste, and abuse in
       government concerns everyone:
       Office of Inspector General staff,
      Departmental employees, and the
      general public. We actively solicit
       allegations of any inefficient and
     wasteful practices, fraud, and abuse
   related to Departmental or Insular area
  programs and operations. You can report
       allegations to us in several ways.




   By Mail:    U.S. Department of the Interior
               Office of Inspector General
               Mail Stop 4428 MIB
               1849 C Street, NW
               Washington, D.C. 20240

   By Phone:   24-Hour Toll Free 800-424-5081
               Washington Metro 703-487-5435

   By Fax:     703-487-5402

   By          www.doioig.gov/hotline
   Internet:
